Page 2 – Charlene Frizzera


Our objective was to determine whether the State agency complied with Federal requirements for
an exemption to the 2-year limit for its retroactive claims for school-based services for the
quarters ending December 31, 2000, through June 30, 2001.

The State agency did not fully comply with Federal requirements for an exemption to the 2-year
limit for filing retroactive claims. A portion of the State agency’s retroactive claim, $4.1 million
(Federal share), fell outside the required 2-year filing period because it related to expenditures
made by the State in quarters ending December 31, 2000, through June 30, 2001. Of this
amount, $2.3 million (Federal share) related to new cost components that were not in the original
rates used to calculate the claims for school-based services and did not reflect the settlement of
previously identified costs. As a result, the $2.3 million (Federal share) was not exempt from the
2-year time limit and is therefore unallowable. The remaining $1.8 million (Federal share) met
the requirements for an exemption because it reflected the settlement of previously identified
salary and fringe benefit costs.

We recommend that the State agency refund $2,298,329 (Federal share) for costs claimed after
the 2-year filing limit that were not exempt and ensure that future claims comply with the 2-year
filing limit.

In written comments on our draft report, the State agency did not concur with our finding and
recommendation. State officials said the September 2003 adjustment represented the
retrospective settlement of school-based services, not a retroactive claim for additional services.

In our report, we agreed that a portion of the September 2003 retroactive claim represented
settlement of interim rates, and we did not question the portion of the claim that adjusted the cost
components of the rates submitted to CMS during the quarters ending December 31, 2000,
through June 30, 2001. We also agree that the September retroactive claim did not represent
costs for new services. However, nothing in the State agency’s comments has given us cause to
modify our recommendation.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General, Region III, at (215) 861-4470 or through
e-mail at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-06-00201.


Attachment
Page 2 – Mr. Warren D. Keefer


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF TIMELINESS OF
      WEST VIRGINIA’S
  RETROACTIVE CLAIMS FOR
  MEDICAID SCHOOL-BASED
         SERVICES




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-03-06-00201
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements, including requirements for timely submission of
claims.

Section 1132(a) of the Act limits Federal payment to claims for expenditures (or payments to
providers) that are filed “within the two-year period which begins on the first day of the calendar
quarter immediately following such calendar quarter [in which the expenditure was made].”
However, Federal regulations make an exception when a claim for expenditures older than 2
years represents an adjustment to prior-year costs. In adjudicating disputes of claims that are
older than 2 years, the Departmental Appeals Board has denied claims it determined were
requests for new and separate Federal funds and not adjustments to previously understated cost
items.

In West Virginia, the Department of Health and Human Resources’ Bureau for Medical Services
(the State agency) administers the Medicaid program. The State agency created rates for seven
Medicaid school-based health and related services (school-based services) claimed by local
education agencies. In September 2003, with the assistance of a consultant, the State agency
increased the rates and submitted a retroactive claim. In June 2005, the State agency submitted a
second retroactive claim reducing the September 2003 claim. The retroactive claims included
$4.1 million (Federal share) submitted after the 2-year filing limit for services paid during the
quarters ending December 31, 2000, through June 30, 2001.

CMS requested that we determine the allowability of the cost components in the seven rates for
school-based services. We will address that request in a separate report.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements for
an exemption to the 2-year limit for its retroactive claims for school-based services for the
quarters ending December 31, 2000, through June 30, 2001.
SUMMARY OF FINDING

The State agency did not fully comply with Federal requirements for an exemption to the 2-year
limit for filing retroactive claims. We examined the portion of the State agency’s retroactive
claim, $4.1 million (Federal share), that fell outside the required 2-year filing period because it
related to expenditures made by the State in quarters ending December 31, 2000, through June
30, 2001. Of this amount, $2.3 million (Federal share) related to new cost components that were


                                                 i
not in the original rates used to calculate the claims for school-based services and did not reflect
the settlement of previously identified costs. As a result, the $2.3 million (Federal share) was not
exempt from the 2-year time limit and is therefore unallowable.

The remaining $1.8 million (Federal share) met the requirements for an exemption because it
reflected the settlement of previously identified salary and fringe benefit costs.

RECOMMENDATION

We recommend that the State agency refund $2,298,329 (Federal share) for costs claimed after
the 2-year filing limit that were not exempt and ensure that future claims comply with the 2-year
filing limit.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our finding and
recommendation. State officials said the September 2003 adjustment represented the
retrospective settlement of school-based services, not a retroactive claim for additional services.
The State agency’s comments are presented in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

In our report we agreed that a portion of the September 2003 retroactive claim represented
settlement of interim rates, and we did not question the portion of the claim that adjusted the cost
components of the rates submitted to CMS during the quarters ending December 31, 2000,
through June 30, 2001. We also agree that the September retroactive claim did not represent
costs for new services. However, nothing in the State agency’s comments has given us cause to
modify our recommendation.




                                                 ii
                                              TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              The Medicaid Program and Applicable Federal Requirements ..................1
              Medicaid Coverage of School-Based Services ............................................1
              West Virginia’s School-Based Program ......................................................1
              The State Agency’s Use of a Consultant .....................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................3

FINDING AND RECOMMENDATION.........................................................................3

          CLAIM FILING TIME LIMIT EXCEEDED..........................................................4
               Federal Requirements and Guidance ...........................................................4
               State Requirement........................................................................................5
               New Costs Included in Rates .......................................................................5

          RECOMMENDATION ...........................................................................................5

          STATE AGENCY COMMENTS............................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                               iii
                                      INTRODUCTION

BACKGROUND

The Medicaid Program and Applicable Federal Requirements

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements, including requirements for timely submission of
claims.

Section 1132(a) of the Act limits Federal payment to those claims reported within 2 years of the
calendar quarter in which the expenditure (or payment to the provider) occurred: “[Claims] shall
be filed . . . within the two-year period which begins on the first day of the calendar quarter
immediately following such calendar quarter; and payment shall not be made under this Act on
account of any such expenditure if claim therefor is not made within such two-year period;
except that this subsection shall not be applied so as to deny payment with respect to any
expenditure involving . . . adjustments to prior year costs.” Federal regulations (45 CFR § 95.7)
implemented the statute by limiting claims to “. . . within 2 years after the calendar quarter in
which the State agency made the expenditure.” Expenditures are “made in the quarter in which
any State agency made a payment to the service provider” (45 CFR § 95.13(b)).

Medicaid Coverage of School-Based Services

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act (originally enacted as
P.L. No. 91-230 in 1970) through a child’s individualized education plan. Under the Act, States
are permitted to claim Federal Medicaid reimbursement for health-related services and
administrative costs for school-based activities. CMS’s “Medicaid and School Health: A
Technical Assistance Guide” (August 1997) states that school health-related services included in
a child’s individualized education plan may be covered if all relevant statutory and regulatory
requirements are met. In establishing payment rates, States may use the rates already established
(Medicaid fee for service) or develop unique payment rates for school-based providers using
statistically accurate and valid data to justify the rate amounts.

West Virginia’s School-Based Program

In West Virginia, the Department of Health and Human Resources’ Bureau for Medical Services
(the State agency) administers the Medicaid program. West Virginia’s Federal medical
assistance percentage is approximately 75 percent. Based on its memorandum of understanding
with the State agency, the State Department of Education (Department of Education) provides



                                                1
school-based health services through each of its 57 local education agencies, which are primarily
county boards of education.

The State plan generally distinguishes between therapy services, including speech, occupational,
and physical therapy, which are provided by individual practitioners, and school-based health
and related services (school-based services), including the preparation and review of a plan of
care, care coordination, transportation services, and the services of personal care and
transportation aides, which are provided by the local education agencies. Effective January
2000, the State agency created six rates for school-based services provided by the local education
agencies. In September 2001, the State agency added a seventh rate.

The State Agency’s Use of a Consultant

In 2002, to identify new sources of Federal revenue, the State agency contracted with a
consulting firm, Public Consulting Group, Inc. (PCG), on a contingency fee basis. PCG
proposed to update the seven rates for school-based services by adding two new cost
components: operating and indirect expenses. These costs did not represent salary and fringe
benefit costs previously used to calculate rates for school-based services. PCG recommended
that the State agency submit a retroactive claim to recoup these costs for fiscal years (FY) 2001
through 2003 (July 1, 2000, through June 30, 2003). The State agency accepted the consultant’s
proposal and submitted it to CMS to support a retroactive claim effective September 2003. In
June 2005, the State agency submitted a second retroactive claim reducing the September 2003
claim. The retroactive claims included $4.1 million (Federal share) submitted after the 2-year
filing limit for services paid during the quarters ending December 31, 2000, through June 30,
2001. The State agency paid PCG a contingency fee of $2.1 million. The State did not claim a
Federal share of that contingency fee.

CMS requested that we determine the allowability of the cost components of the seven rates for
school-based services. We will address that request in a separate report. 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements for
an exemption to the 2-year limit for its retroactive claims for school-based services for the
quarters ending December 31, 2000, through June 30, 2001.

Scope

We analyzed $4,055,229 (Federal share), which is the portion of the retroactive claims claimed
after the 2-year filing limit for quarters ending December 31, 2000, through June 30, 2001. We
limited our review to the entries in the Medicaid paid claims database supporting the State


1
    “Review of Medicaid Reimbursement Rates for School-Based Health Services in West Virginia” (A-03-05-00203).



                                                        2
agency’s original claims for school-based services and the two retroactive claims that adjusted
the rates used to claim them.

We did not review the overall internal control structure of the State agency or the Medicaid
program. We limited our review to those controls related to the State agency’s methodology for
calculating the adjustment and determining the subsequent retroactive claim.

We performed our fieldwork at the State agency offices in Charleston, West Virginia.

Methodology

To accomplish our objective, we:

   •   reviewed the applicable Federal and State Medicaid laws, regulations, and guidance;
       relevant sections of the Medicaid State plan; PCG’s Federal revenue maximization
       contract; the State agency’s memorandum of understanding with the Department of
       Education; grant and provider agreements; and policies and procedures for school-based
       services;

   •   reviewed PCG’s rate proposal for school-based services, submitted in support of the State
       agency’s retroactive claim, to determine the basis for the rate calculations;

   •   interviewed State agency and Department of Education officials to gain an understanding
       of the State’s school-based program and how the State agency processed Medicaid claims
       for school-based services;

   •   obtained and analyzed the Medicaid paid claims database consisting of 1,309,307 claims
       for school-based services paid in quarters ending December 31, 2000, through September
       30, 2003;

   •   calculated the amount of the State agency’s retroactive claims submitted for expenditures
       paid in quarters ending December 31, 2000, through June 30, 2001; and

   •   calculated the Federal share of the portion of the September 2003 retroactive claim that
       violated the filing requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

The State agency did not fully comply with Federal requirements for exemption to the 2-year
limit for filing retroactive claims. We examined the portion of the State agency’s retroactive


                                                3
claim, $4.1 million (Federal share), that fell outside the 2-year filing requirement because it
related to expenditures made by the State in quarters ending December 31, 2000, through June
30, 2001. Of this amount, $2.3 million (Federal share) related to new cost components that were
not in the original rates used to calculate the claims for school-based services and did not reflect
the settlement of previously identified costs. As a result, $2.3 million (Federal share) of the
amount claimed after the 2-year time limit was not exempt and was therefore unallowable.

The remaining $1.8 million (Federal share) met the requirements for an exemption because it
reflected the settlement of previously identified salary and fringe benefit costs.

CLAIM FILING TIME LIMIT EXCEEDED

Federal Requirements and Guidance

Section 1132(a) of the Act limits Federal payment to those claims reported within 2 years of the
calendar quarter in which the expenditure occurred: “[Claims] shall be filed . . . within the two-
year period which begins on the first day of the calendar quarter immediately following such
calendar quarter; and payment shall not be made under this Act on account of any such
expenditure if claim therefor is not made within such two-year period; except that this subsection
shall not be applied so as to deny payment with respect to any expenditure involving . . .
adjustments to prior year costs.”

Regulations (45 CFR § 95.13(b)) state expenditures are “made in the quarter in which any State
agency made a payment to the service provider.” Regulations (45 CFR § 95.19) allow for
specific exceptions to the 2-year requirement, including an exception for an adjustment to prior-
year costs. Regulations (45 CFR § 95.4) define the term “adjustment to prior year costs” as
“. . . an adjustment in the amount of a particular cost item that was previously claimed under an
interim rate concept and for which it is later determined that the cost is greater or less than that
originally claimed.”

The Departmental Appeals Board (DAB) distinguishes between retroactive claims submitted as
adjustments to previously understated cost items and new and separate requests for Federal
funds. It has stated that the latter would not meet the definition of “adjustment to prior year
costs” in 45 CFR § 95.4 and would thus be barred if made outside of the 2-year filing limit. In
Massachusetts Department of Public Welfare, DAB No. 796 (1986), the DAB determined that
claims for additional bed days in an intermediate care facility for the mentally retarded were time
barred because they were new claims “wholly independent of previous claims.” Similarly, the
DAB held in New Jersey Department of Human Services, DAB No. 1655 (1998), that a claim for
enhanced Federal share was time barred because it was “new and separate” from the prior timely
claim for the same costs at the normal Federal matching rate. More recently, the DAB ruled that
a retroactive adjustment to disproportionate share hospital payments was a new and separate
claim because it was based on making new payments to newly identified disproportionate share
hospitals rather than adjusting prior-year costs (New York State Department of Health, DAB
No. 1867 (2003)).




                                                  4
CMS provided additional guidance in a July 2001 letter to State Medicaid Directors (SMDL #01-
020) that reminded States of the regulatory limits on filing retroactive claims and clarified the
implications of an earlier DAB decision (DAB No. 1655 (1998), cited above) that addressed
claims filed at amended Federal matching rates. In its letter, CMS reiterated that new claims
must be filed within 2 years.

State Requirement

Attachment-4.19B of the State plan, “Payments for Medical and Remedial Care and Services,”
allows for the use of interim rates based on statewide historical costs. The State plan attachment
requires that “Costs [are] not to exceed actual, reasonable costs and must be settled on an annual
basis.”

New Costs Included in Rates

In September 2003, the State agency submitted a retroactive claim for expenditures made on or
before the quarter ending June 30, 2001, that included $2.3 million (Federal share) related to
expenditures for new cost components. The $2.3 million (Federal share) fell outside the 2-year
filing limit and did not meet the regulatory exception for adjustments to prior-year claims
because it was a new and separate claim for Federal reimbursement. The State agency’s
proposal said that the retroactive claim was a prior-year adjustment to previously understated
cost items in the rates. The proposal stated that this was allowable under the interim rate concept
as defined by Federal regulations, was consistent with the State plan, and, therefore, was not
subject to the 2-year limit. However, not all of the adjustments the State agency made to the
claim reflected settlement of interim rates on an annual basis or adjusted previously identified
costs that were later determined to be greater than originally claimed.

The rates originally claimed included salary and fringe benefit costs of local education agencies’
employees. We accepted the portion of the retroactive claim for the settlement of these costs
because it met the requirement for an exemption from the 2-year limit. However, the retroactive
claim also included a request for two new cost components: operating and indirect costs.
Specifically, these costs included local education agency expenditures for administration and
data processing, supplies and rental costs, maintenance and repair costs, and capital and debt
service costs. The State agency did not include these costs when it calculated the rates used in
the original claim. Because the State agency adjusted for the addition of new cost components to
the rates, the retroactive claim also represented a new and separate request for Federal funding of
previously unclaimed cost items. Accordingly, the State improperly received $2.3 million
(Federal share) for those expenditures made on or before the quarter ending June 30, 2001, that
did not meet the requirements for an exemption from the 2-year limit.

RECOMMENDATION

We recommend that the State agency refund $2,298,329 (Federal share) for costs claimed after
the 2-year filing limit that were not exempt and ensure that future claims comply with the 2-year
filing limit.




                                                 5
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our finding and
recommendation. State officials said the September 2003 adjustment represented the
retrospective settlement of school-based services as required by the “Provider Reimbursement
Manual,” HIM-15, and not a claim for additional services. The State agency’s comments are
presented in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

In our report we agreed that a portion of the September 2003 retroactive claim represented
settlement of interim rates as required by the State plan. (The “Medicare Provider
Reimbursement Manual,” HIM-15, does not provide guidance regarding the Medicaid claims in
this report.) Accordingly, we did not question the portion of the claim that adjusted the cost
components included in the rates submitted to CMS during the quarters ending December 31,
2000, through June 30, 2001. We also agree that the claims did not represent costs for new
services.

However, the State agency’s “Final Retroactive Rate Proposal,” dated October 1, 2003, revised
its rates to include some cost components that were not a part of the original rates and thus were
subject to the 2-year filing limitation. The portion of the claim for revised rates was time barred
because the cost components were new and separate from the prior timely claim. Similarly, the
DAB held in New Jersey Department of Human Services, DAB No. 1655 (1998), that a claim for
enhanced Federal share was time barred because it was “new and separate” from the prior timely
claim at the normal Federal matching rate. Nothing in the State agency’s comments has given us
cause to modify our recommendation.




                                                6
APPENDIX
APPENDIX
 Page 1 of 3
APPENDIX
 Page 2 of 3
APPENDIX
 Page 3 of 3
